                              CLOSEOUT FOR M95010004




                      -
           This case came to OIG on January 23, 1995, when ~r.-                      a
   program director in htep
                          -o
                           rgarm                                  of NSF's Division of
  -supplied us with evidence of possible misconduct
   in science. The alleged misconduct involved a proposal submitted to NSF by Dr.
fo-                              the O   s       u      b     j      e     c      t #1).' It
   was alleged that the proposal made inappropriate use of a proposal2 submitted by
   another scientist, Dr. o f-                the Department o f - !
  a          t the                         (the complainant). Dr. -1                 a
   colleague at the complainant's university, had made the program director aware of the
   allegation. The colleague expressed concern that Dr.                        (Subject
   #2), a senior scientist at Subject #l's institution whom the complainant had suggested
   to NSF as a possible reviewer for the complainant's proposal, might have violated the
   integrity of NSF's confidential merit review process by sharing the complainant's
   proposal with Subject #l. According to the program director, the colleague alleged
   that unusual "phrases and references" in the complainant's proposal appeared in
   Subject #l's proposal and suggested that Subject #1 had misappropriated the
   complainant's work.

         OIG contacted the complainant to get more specific information about what
 material he believed had been misappropriated from his proposal. The complainant
 said that there were remarkable similarities between Subject #l 's research strategy and
 his own and claimed that the colleague shared this judgment. OIG asked the
 complainant for a specific, preferably written, description of the similarities, but the
 complainant, despite OIG's repeated requests, did not provide one. OIG examined the
 two proposals and did not notice any similarities in strategy that suggested that one
 proposal had been used as a source for the other. OIG concluded that this general
 allegation, in the absence of specifically described similarities, lacked substance and
 could not be meaningfully pursued.

        The complainant also alleged that Subject #1 in his proposal used forms of
 expression that, though unusual in English writing generally, were characteristically

  ' The proposal,,-                 -
                             was entitled "
                         " Subject #1 was the sole PI. NSF declined to fund the proposal.
                                              was the sole PI. NSF declined to fund the proposal.


                                     page 1 of 2                                       M95-04
                            CLOSEOUT FOR M95010004

used by the complainant, a non-native speaker of English. The complainant cited this
alleged fact as evidence that Subject #1 had made inappropriate use of the
complainant's proposal. When OIG examined the proposal, we did not notice
remarkable similarities in writing style that substantiated the complainant's inference of
inappropriate use. The evidence bearing on the one specific example that the
complainant cited to us did not support his allegation.

         The complainant alleged that Subject #1 cited unusual sources in the research
literature, including unpublished conference proceedings, that were cited in the
complainant's proposal. The complainant cited this as evidence that Subject #1 had
made inappropriate use of the complainant's proposal. OIG examined the reference
lists in the two proposals. We concluded that, although there was some overlap, this
was not remarkable for two scientists working in related areas and was not evidence of
that Subject #1 had misused the complainant's proposal.

        OIG concluded that the allegation that Subject #1 had misappropriated material
from the complainant's proposal lacked substance. Subject #l's alleged
misappropriation was the only evidence supporting the allegation that Subject #2 had
violated the integrity of the confidential merit review process. OIG therefore concluded
that this allegation lacked substance as well.

       This inquiry is closed and no further action will be taken on this case.



cc: Acting Deputy AIG-0, AIG-0, IG




                                   page 2 of 2
